No.

In the Supreme Court of the United States
_______
Jeffrey Olson,
Petitioner,
v.
Minnesota Commissioner of Revenue,
Respondent.

________
On Petition for Writ of Certiorari to
the Supreme Court of Minnesota
_________
PETITION FOR WRIT OF CERTIORARI
_________
Eric Johnson
Johnson Tax Law P.C.
101 E Fifth Street, Suite 910
St. Paul Minnesota 55101
651-224-6638
eric.johnson@johnsontaxlaw.com
Counsel for Petitioner
May 7, 2021

i
QUESTION PRESENTED
Under Minnesota tax procedure, the central
procedural event is the issuance of a Commissioner’s
Order, by which the Minnesota Commissioner of
Revenue determines and assesses tax. If the taxpayer
fails to file a timely appeal in response to the
Commissioner’s Order, the tax assessment in most
circumstances becomes final.
The Commissioner’s Order in this case was sent
by ‘ordinary’ non-certified mail to Petitioner Jeffrey
Olson. Olson never received it and therefore did not
file a timely appeal. Olson is now legally precluded
from ever disputing the merits of the tax assessment.
The question presented is whether issuance of
the Commissioner’s order by ordinary mail meets
constitutional requirements of procedural due
process.

ii
PARTIES TO THE PROCEEDINGS
The Petitioner is Jeffrey Olson, a farmer in
Thief River Falls, Minnesota. The Respondent is the
Commissioner of the Minnesota Department of
Revenue.
RELATED PROCEEDINGS
There are no related proceedings in federal or
state court.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS ..................... ii
RELATED PROCEEDINGS ................................... ii
TABLE OF AUTHORITIES .................................... v
PETITION FOR WRIT OF CERTIORARI ........... 1
OPINIONS BELOW ................................................. 1
JURISDICTION ....................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ...................................... 1
STATEMENT OF THE CASE ................................. 2
REASONS FOR GRANTING THE PETITION .... 4
APPENDIX
OPINION IN THE MINNESOTA
SUPREME COURT
(December 30, 2020) ....................................... App. 2

iv
ORDER DENYING PETITION
FOR REHEARING IN THE
MINNESOTA SUPREME COURT
(February 8, 2021)......................................... App. 11
ORDER GRANTING MOTION
TO DISMISS IN THE MINNESOTA
TAX COURT (June 15, 2020) ....................... App. 12
MINN.STAT. §270C.38 .................................. App. 27
MINN.STAT. §271.06 subd. 2 ....................... App. 27
MINN.STAT. §289A.40 subd. 1 .................... App. 27

v
TABLE OF AUTHORITIES
CASES
Mullane v. Central Hanover Bank & Trust,
339 U.S. 306, 314 (1950) ............................... 4
CONSTITUTION AND STATUTES
U.S. Const. amend. XIV §1 ...................................... 1
28 U.S.C. §1257(a) .................................................... 1
Minn.Stat. §270C.38 ................................................. 2
Minn.Stat. §271.06 ................................................... 2
Minn.Stat. §289A.40 ................................................ 2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Jeffrey Olson hereby respectfully
petitions this Court for a writ of certiorari.
OPINIONS BELOW
The opinion of the Minnesota Supreme Court is
reported at 955 N.W.2d 605 (Minn. 2020). The opinion
is also reprinted in the Appendix attached hereto
(“App.”) at 2. The opinion of the Minnesota Tax Court
is unpublished, but is reprinted in the Appendix
attached hereto. App. at 12.
JURISDICTION
The Minnesota Supreme Court issued its
opinion on December 30, 2020. The Minnesota
Supreme Court subsequently denied the Petitioner’s
timely petition for rehearing on February 8, 2021.
This Court has jurisdiction under 28 U.S.C.
§1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
[N]or shall any State deprive any person of life,
liberty, or property, without due process of law
….
U.S. Const. amend. XIV §1.

2
Minn.Stat. §270C.38 - App. at 27
Minn.Stat. §271.06 - App. at 27
Minn.Stat. §289A.40 - App. at 27
STATEMENT OF THE CASE
Petitioner Jeffrey Olson lives in Thief River
Falls, Minnesota, where he operates a farming
operation (and construction business) as a sole
proprietorship out of his home.
The Minnesota Commissioner of Revenue (‘the
Commissioner’) assessed tax, penalties, and interest
of $154,779.09 against Olson. The Commissioner’s
determination was issued through a Commissioner’s
Order sent to Olson via ‘ordinary’, i.e. non-certified
and non-verified, mail. Minnesota statutes state that
ordinary mail is sufficient for issuance of the
Commissioner’s Order. Minn.Stat. §270C.38.
Olson never received the mailed Commissioner’s Order.
Under Minnesota tax procedure, there are only
two routes to challenge assessed tax. The taxpayer
may petition the Minnesota Tax Court for review of
the assessment within sixty days of issuance of the
Commissioner’s
Order.
Minn.Stat.
§271.06.
Alternatively, the taxpayer may make full payment of
the assessed tax and file a refund claim within a year
of the Commissioner’s Order. Minn.Stat. §289A.40
subd. 1.

3
Olson first learned of the tax assessment more
than sixty days after the Commissioner’s Order. Olson
was financially unable to pay the tax assessment in
full and file a refund claim within a year of the Commissioner’s Order.
Olson filed a petition with the Minnesota Tax
Court, more than sixty days from the Commissioner’s
Order, to dispute the tax assessment. Olson took the
position that service of the Commissioner’s Order, by
ordinary mail, violates constitutional standards of
procedural due process, given the finality of the
Commissioner’s Order under Minnesota tax
procedure. The Minnesota Tax Court dismissed his
case, on the basis that it was filed more than sixty
days from the Commissioner’s Order. Olson appealed
to the Minnesota Supreme Court, which upheld the
dismissal.
Olson is now without a remedy ever to dispute
the tax claimed by the Commissioner.
Olson raised his procedural due process claims
under the United States Constitution before the
Minnesota Tax Court. Amendment to Amended Notice
of Appeal of March 23, 2020, allowed by Order of the
Tax Court of April 23, 2020. Olson continued to raise
his procedural due process claims under the United
States Constitution in his appeal to the Minnesota
Supreme Court. Relator’s Opening Brief to the
Minnesota Supreme Court at 5.

4
REASONS FOR GRANTING THE WRIT
The core of constitutionally required procedural
due process has been well-stated by this Court:
An elementary and fundamental requirement
of due process in any proceeding which is to be
accorded finality is notice reasonably
calculated, under all the circumstances, to
apprise interested parties of the pendency of
the action and afford them an opportunity to
present their objections.
Mullane v. Central Hanover Bank & Trust, 339 U.S.
306, 314 (1950).
The violation of procedural due process
standards in this case is palpable and extreme. Under
principles of procedural due process, a person should
not suffer an irreversible loss of rights, or be rendered
insolvent, through missing a single notice sent by
ordinary mail.
This is not a case with a narrow set of facts
applicable to a limited number of parties. The
constitutionally defective Minnesota tax procedures
potentially affect all Minnesota taxpayers. Unknown
numbers of Minnesota taxpayers have defaulted, are
defaulting, and will default on their right to challenge
Minnesota tax assessments, through missing a single
notice sent by ordinary mail.

5
Respectfully submitted,
/s/ Eric Johnson
Eric Johnson
Johnson Tax Law P.C.
101 E Fifth Street, Suite 910
St. Paul, Minnesota 55101
651-224-6638
eric.johnson@johnsontaxlaw.com
Counsel of Record for
Petitioner Jeffrey Olson
May 7, 2021

APPENDIX
OPINION IN THE MINNESOTA
SUPREME COURT
(December 30, 2020) ....................................... App. 2
ORDER DENYING PETITION
FOR REHEARING IN THE
MINNESOTA SUPREME COURT
(February 8, 2021)......................................... App. 11
ORDER GRANTING MOTION
TO DISMISS IN THE MINNESOTA
TAX COURT (June 15, 2020) ....................... App. 12
MINN.STAT. §270C.38 .................................. App. 27
MINN.STAT. §271.06 subd. 2 ....................... App. 27
MINN.STAT. §289A.40 subd. 1 .................... App. 27

App. 2
STATE OF MINNESOTA
IN SUPREME COURT
A20-1048
McKeig, J.

Tax Court
Jeffrey Olson,

Relator,
vs.

Filed: December 30, 2020
Office of Appellate Courts

Commissioner of Revenue,
Respondent.
______________________________
Eric Johnson, Johnson Tax Law P.C., Saint Paul,
Minnesota, for relator.
Keith Ellison, Attorney General, John M.
O’Mahoney, Assistant Attorney General, Saint Paul,
Minnesota, for respondent.
________________________
SYLLABUS
The Department of Revenue’s notice of a tax
order sent to the taxpayer by regular, non-certified,
mail satisfies due process.
Affirmed.

App. 3
OPINION
MCKEIG, Justice.
This case considers whether notice of a tax
order sent by regular mail satisfies due process under
the United States and Minnesota Constitutions. The
Department of Revenue sent relator Jeffrey Olson a
tax order assessing sales and use taxes covering a 3year period. This tax order was sent by regular (i.e.
non-certified) mail. Olson maintains that he either did
not receive this order or he overlooked it and only
learned about the order once the Commissioner of
Revenue levied his bank account. Olson appealed the
tax order to the tax court, where he asserted that
regular mail provided insufficient notice and therefore
violated procedural due process. The Commissioner
moved to dismiss, arguing that regular mail satisfies
due process under our precedent in Turner v.
Commissioner of Revenue, 840 N.W.2d 205, 209–10
(Minn. 2013). The tax court agreed with the
Commissioner and dismissed the appeal. Because we
conclude that sending a tax order by regular mail
provides constitutionally sufficient notice, we affirm.
FACTS
Relator Jeffrey Olson runs a farming operation
and heavy construction business as a sole
proprietorship. The Commissioner first sent Olson a
letter on April 27, 2017, to his home address, which is
also his business address, informing him that he had
been selected for a sales and use tax audit. There was
no response to this letter. The Commissioner then sent

App. 4
Olson a letter on May 19, 2017, to the same address,
informing him that the Department’s staff had tried
multiple times to reach him by phone to schedule an
appointment so that he could participate in the audit.
The audit conference was scheduled to take place in
Olson’s city of residence, Thief River Falls, on June 19,
2017. The Commissioner wrote to Olson again on June
30, 2017, to inform him that he had failed to appear
for the conference, which was therefore rescheduled to
July 17, 2017 at the same location. Olson also failed to
appear at this conference.
The Commissioner then sent a preliminary
audit report to Olson on July 28, 2017, showing that
Olson owed $120,541.01 in unpaid sales and use taxes
relating to his business. Olson again failed to respond.
The Department sent Olson a tax order by
regular mail—as authorized by the Legislature, see
Minn. Stat. § 270C.33, subd. 8 (2020)—assessing the
sales and use taxes and over $30,000 in penalties and
interest. Collectively, the Department asserted that
Olson owed $154,779.09. The tax order had a notice
date of September 6, 2017, and indicated that
payment was due on November 6, 2017. Alternatively,
Olson had 60 days to pursue an internal appeal of the
order. The tax order was addressed and sent—as with
all other correspondence from the Department—to
Olson’s home address, which is the same as his
business address.
Olson asserts he first became aware of the tax
liability in January 2018, when his bank account was
levied on by the Commissioner. After an unsuccessful
courtesy review within the Department, Olson
appealed to the tax court from the September 6 tax

App. 5
order. In his amended notice of appeal, Olson alleged
that there was no regular audit, that he did not
actually receive any mailings from the Commissioner,
and he disputed all amounts assessed by the
Commissioner. He told the tax court that he
“receive[s] a substantial amount of ‘junk mail’ at [his]
house” that “tends to ‘pile up’ on the kitchen table.”
Olson had “no record or knowledge” that he received
the Commissioner’s tax order.
The Commissioner filed a motion to dismiss for
lack of subject matter jurisdiction, asserting that
Olson’s appeal was untimely. See Minn. Stat. §
271.06, subd. 2 (2020) (requiring that an appeal of a
tax order must be filed within 60 days of the notice
date of the order). Based on the September 6 notice
date, Olson’s appeal was due November 5, 2017, but
he did not file it until over two years later, on
December 23, 2019. The Commissioner also
maintained that Olson’s claim—that he did not
receive the tax order—was irrelevant, because the
Commissioner properly sent all correspondence by
regular mail to his last known address. In response to
the motion to dismiss, Olson argued that the tax order
was not mailed on the date claimed and that regular
mailing alone was insufficient notice to satisfy due
process.
The tax court allowed Olson to file an amended
notice of appeal so that he could raise his
constitutional claims. In addition to asserting the
constitutional claim, Olson further declared that he
“would not have been able to pay off the taxes at issue
in this case in full, without substantial personal and
business hardship.”

App. 6
The tax court granted the Commissioner’s
motion to dismiss, concluding that Olson’s appeal was
untimely. Olson v. Comm’r of Revenue, No. 9376-R,
2020 WL 3455828, at *6 (Minn. T.C. June 15, 2020).
Olson then appealed to us by writ of certiorari. See
Minn. Stat. § 271.10 (2020).
ANALYSIS
The Legislature authorized the Commissioner
to notify taxpayers of a tax assessment by mail,
“postage prepaid.” Minn. Stat. § 270C.33, subd. 8.
Olson asserts that regular, non-certified, mail service
provides insufficient notice of a tax liability and
therefore violates due process. The Commissioner
responds that regular mail, which is authorized by
statute, provides sufficient notice to satisfy due
process.1
We review “orders of the tax court to determine
whether the tax court lacked jurisdiction, whether its
decision was not justified by the evidence or did not
conform to the law, and whether the tax court
otherwise committed an error of law.” Turner, 840
N.W.2d at 207; see Minn. Stat. § 271.10, subd. 1
(2020). We review the tax court’s factual findings for
clear error and its conclusions of law, including
constitutional determinations, de novo. Id. at 207–08.
Olson effectively asks us to hold that section 270C.33,
subdivision 8, which permits the use of regular mail for a tax
order, is unconstitutional. “We presume that statutes are
constitutional and hold the party asserting otherwise to a high
burden to overcome that presumption.” Fielding v. Comm’r of
Revenue, 916 N.W.2d 323, 328 (Minn. 2018).
1

App. 7
The Due Process Clauses of the United States
and Minnesota Constitutions provide that the
government cannot deprive a person of “life, liberty, or
property without due process of law.” Boutin v.
LaFleur, 591 N.W.2d 711, 716 (Minn. 1999) (quoting
U.S. Const. amends. V, XIV; Minn. Const. art. I, § 7).
But “[d]ue process does not require that a property
owner receive actual notice before the government
may take [their] property.” Jones v. Flowers, 547 U.S.
220, 226 (2006) (emphasis added). Instead, notice is
constitutionally sufficient if it is “reasonably
calculated, under all the circumstances, to apprise
interested parties of the pendency of the action and
afford them an opportunity to present their
objections.” Mullane v. Cent. Hanover Bank & Tr. Co.,
339 U.S. 306, 314 (1950). For example, “regular
mailing alone would normally satisfy the
requirements of due process.” Turner, 840 N.W.2d at
210. If the State, however, has actual knowledge that
its initial notice to the taxpayer has failed to reach the
taxpayer, due process requires that the State take
additional reasonable steps to attempt to provide
notice if it is practicable to do so. Jones, 547 U.S. at
227–31; see also Robinson v. Hanrahan, 409 U.S. 38,
38–40 (1972) (holding that when state had actual
knowledge that vehicle owner was in jail, it could not
initiate vehicle forfeiture proceedings by mailing
notice to his home address).
Olson contends that regular mail notice is
insufficient because a better alternative exists
(certified mail) and the amount at issue (over
$150,000) warrants more sophisticated notice
procedures. Olson admits he may have “overlooked”

App. 8
the tax order, but maintains that his inability to
dispute the underlying tax assessment—because he
did not contest the tax order in 60 days—requires
more effective notice of the tax order. Olson argues
that the glut of junk mail in modern times means that
“most people no longer monitor the mail for important
notices the way they once did.” He points us to several
cases holding certified mail to be constitutionally
sufficient. See, e.g., Dusenbery v. United States, 534
U.S. 161 (2002). Olson also suggests that federal tax
law, which generally requires certified mail, is
evidence that Minnesota’s procedures are deficient.
He further maintains that our language commenting
on the sufficiency of regular mail in Turner was dicta.
The Commissioner responds first by noting that
Olson received numerous letters and phone calls
regarding his audit, none of which he responded to,
and then cites Mullane, 339 U.S. at 319, in which the
United States Supreme Court held regular mail to be
sufficient notice. The Commissioner responds to
Olson’s alleged inability to dispute the tax assessment
by noting that he had over 3 years from the date of the
assessment to file a refund claim. See Minn. Stat. §
289A.40 (2020).2 The Commissioner also points out
that the cases cited by Olson found that certified mail
was sufficient notice, but not that it was necessary
notice. Ultimately, the Commissioner asserts, it was
Olson’s responsibility to monitor his mail.

This provision would require Olson to pay the full assessment,
then file a “claim for a refund of an overpayment.” Minn. Stat. §
289A.40, subd. 1.
2

App. 9
As an initial matter, Olson is correct that
Turner does not necessarily control this case. In
Turner, notice of a tax assessment was sent by both
email and regular mail to Turner, who was living
abroad at the time. 840 N.W.2d at 210. We stated that
both forms were “entirely reasonable in context.” Id.
The context was that Turner was in regular contact
with the Department by email while living abroad,
and that his wife was living at their home in
Minnesota at the time. We also noted that regular
mail would “normally” satisfy due process, which left
open the possibility of scenarios when some other form
of notice may be required. Id. Accordingly, because our
statement on regular mail did not foreclose all
possible factual circumstances, Turner does not
preclude Olson’s constitutional challenge.
On the facts before us, however, the
Commissioner is nevertheless correct that notice by
regular mail was constitutionally sufficient here.
Setting aside Olson’s concession that he may have
received the September 6 notice and overlooked it, his
arguments appear focused on why certified mail is a
better policy choice, not why regular mail is a
constitutionally deficient choice. We also agree with
the Commissioner that the cases cited by Olson
holding that certified mail was sufficient do not mean
that certified mail was required. In fact, the United
States Supreme Court has observed that certified mail
may be less likely to provide notice than regular mail
because certified mail “cannot be left like regular mail
to be examined at the end of the day, and it can only
be retrieved from the post office for a specified period
of time.” Jones, 547 U.S. at 235.

App. 10
Olson does not assert, nor is there any evidence
to suggest, that the Commissioner knew Olson had
not received notice of his tax liability. None of the
letters sent by the Commissioner to Olson were
returned as undeliverable, and he lived at the address
to which each letter was sent. And aside from general
statements in his brief about complications arising
from pervasive junk mail, Olson provides no evidence
that regular mail is not “reasonably calculated” to
reach the address and person to which it is sent. See
Mullane, 339 U.S. at 318. Nor does Olson cite any
persuasive authority that holds that regular mail is
insufficient notice.
To the contrary, persuasive authority has held
that regular mail provides sufficient notice to, for
example, property owners. See, e.g., Roslyn Jane
Holdings, LLC v. Jefferson, 42 N.Y.S.3d 61, 63 (N.Y.
App. Div. 2016) (“Since the first class mailing
addressed to the petitioner was not returned, there
was no reason for L & L to believe that notice had not
been received.”); cf. Phillips Petroleum Co. v. Shutts,
472 U.S. 797, 812 (1985) (holding that regular mail
notice to opt out of class action satisfied due process).
Although Turner does not preclude every
possible due process challenge to the use of regular
mail, on the facts before us, Olson’s notice was
constitutionally sufficient. His arguments in favor of
certified mail are better suited for the Legislature.
CONCLUSION
For the foregoing reasons, we affirm the
decision of the tax court.
Affirmed.

App. 11
STATE OF MINNESOTA
IN SUPREME COURT
A20-1048
McKeig, J.

Tax Court
Jeffrey Olson,

Relator,
vs.

Filed: February 8, 2021
Office of Appellate Courts

Commissioner of Revenue,
Respondent.
ORDER
Based upon
proceedings herein,

all

the

files,

records,

and

IT IS HEREBY ORDERED that the petition of
Jeffrey Olson for rehearing pursuant to Minn. R. Civ.
App. P. 140.01 be, and the same is, denied.
Dated: February 8, 2021
BY THE COURT:
/s/ Anne. K. McKeig
Associate Justice

App. 12
STATE OF MINNESOTA

TAX COURT

COUNTY OF RAMSEY

REGULAR DIVISION

Jeffrey Olson,

ORDER GRANTING
MOTION TO
DISMISS

Appellant,

Docket No.: 9376-R

vs.
Commissioner of Revenue,

Filed: June 15, 2020

Appellee.
This matter came before the Honorable Jane N.
Bowman, Judge of the Minnesota Tax Court, on Mr.
Olson’s motions for leave and the Commissioner of
Revenue’s motion to dismiss.
Eric Johnson, Johnson Tax Law, PC, represents
the appellant.
John M. O’Mahoney, Assistant Minnesota
Attorney General, represents appellee.
The Commissioner of Revenue brought a
motion to dismiss, alleging this court does not have
subject matter jurisdiction over the matter as a result
of Appellant Jeffrey Olson’s untimely appeal. Mr.
Olson subsequently moved for leave to amend his
appeal, which was granted by prior order of this court.
Mr. Olson then brought a motion for leave to
supplement the factual record and to allow for
supplemental briefing. Based on the pleadings,
memoranda, affidavits, and arguments of counsel, this
court orders, as follows:

App. 13
ORDER
1. The Commissioner of Revenue’s motion to
dismiss is granted.
2. Mr. Olson’s motion for leave to supplement
the factual record is granted.
3. Mr. Olson’s motion to allow supplemental
briefing is denied as moot.
BY THE COURT:
THE GREAT SEAL
OF THE STATE OF
MINNESOTA 1858
/s/ Jane N. Bowman, Judge
MINNESOTA TAX COURT
DATED: June 15, 2020
MEMORANDUM
I.

BACKGROUND

Mr. Jeffrey Olson, the appellant, appeals a
Minnesota Department of Revenue Tax Order (“tax
order”) dated September 6, 2017, which assessed him
for sales and use taxes from December 2013 –
December 2016.3 Mr. Olson runs a farming operation
Not. Appeal (filed Dec. 26, 2019); Am. Not. Appeal (filed Dec.
26, 2019) (the Amended Notice of Appeal corrects a grammatical
mistake and updates the service certificate).
3

App. 14
and a heavy construction business as a sole
proprietorship in Thief River Falls.4 Prior to the
issuance of the tax order at issue, the Commissioner
sent Mr. Olson numerous letters to Mr. Olson
concerning an audit for sales and use taxes.5
Specifically, the Commissioner mailed to Mr. Olson
four letters: (1) informing him of the audit; (2)
notifying him of the date and time for the in-person
audit; (3) notifying him that the audit had been
rescheduled due to his non-appearance; and (4)
enclosing a copy of the Commissioner’s preliminary
audit report, which also invited Mr. Olson to respond
with any records that were not consistent with the
preliminary audit.6 After Mr. Olson did not respond to
the preliminary audit, the Commissioner mailed the
disputed tax order.7 There is no dispute that all four
of these preliminary letters, and the tax order, were
addressed to Mr. Olson’s Thief River Falls address. 8
For his part, Mr. Olson states in a declaration
that the disputed tax order, “(assuming it was in fact
issued on or about September 6, 2017) was not
preceded by a regular audit in which I, or any
representative on my behalf, took an active role.”9 Mr.
Olson’s declaration was silent as to whether or not his
Decl. of Jeffrey Olson (Mar. 9, 2020) ¶¶ 3, 8.
Suppl. Aff. of Sara Westly (Mar. 18, 2020) ¶¶ 2-6.3
6 Suppl. Westly Aff. ¶¶ 2-6 & Exs. A-D.
7 Suppl. Westly Aff. ¶ 7. The Minnesota Department of Revenue
reviewed Appellant Jeffrey Olson’s sales and use tax liability for
December 2013 – December 2016, resulting in an assessment of
$154,779.09.
8 Suppl. Westly Aff. ¶ 2; Olson Decl. ¶ 9.
9 Olson Decl. ¶ 5.
4
5

App. 15
failure to take part in any audit was because he did
not receive notice or if he chose not to participate.
On December 26, 2019, Mr. Olson filed his
Notice and Amended Notice of Appeal of an Order of
the Commissioner of Revenue.10 Attached to the
Amended Notice of Appeal is a copy of the disputed tax
order, Letter ID L0910790464, with a notice date of
September 6, 2017.11 In addition to disputing “all
amounts determined in the Commissioner’s Order,”
Mr. Olson avers he did not receive the Commissioner’s
tax order, and instead only learned of the “tax liability
when the Commissioner began collection action.” 12
Neither Mr. Olson’s Notice of Appeal, nor his
Amended Notice of Appeal, raised any constitutional
issues.
In lieu of a Return and Answer, the
Commissioner filed the present motion, arguing—as a
late filed appeal—this court lacks subject matter over
this appeal.13 The Commissioner’s motion included an
affidavit from a Department of Revenue employee,
Ms. Kelly Hagberg, who attested to having reviewed
the Department’s electronic and paper records which
showed the tax order under appeal was printed on
September 1, 2017 at 11:04 p.m. and postmarked on
September 5, 2017, at 11:10 a.m.14
In response to the Commissioner’s motion, Mr.
Olson contends: (1) “that the Commissioner’s Order
was not mailed” and (2) that if this court determines
Am. Not. Appeal.
Am. Not. Appeal.
12 Am. Not. Appeal 1-2.
13 Mem. Supp. Mot. Dismiss (filed Feb. 21, 2020).
14 Aff. of Kelly Hagberg ¶ 4 (Feb. 18, 2020).
10
11

App. 16
the tax order was mailed, “bare mailing of the
Commissioner’s Order … is not constitutionally …
sufficient due process … ” 15 In support of Mr. Olson’s
claim that the tax order was not mailed, Mr. Olson—
via declaration—stated: “I have no record or
knowledge that I received the Commissioner’s Order
within 60 days of September 6, 2017.” 16 Mr. Olson’s
declaration further states he first learned of the tax
claim in January 2018, when his bank account was
levied by the Department of Revenue.17
In reply, the Commissioner filed the affidavit of
Sara Westly, the Director of the Collections Division
of the Minnesota Department of Revenue.18 Ms.
Westly also attested to having reviewed the electronic
and paper records documenting the printing and
mailing of the tax order.19 In addition to attaching the
paper records, Ms. Westly stated the tax order was
printed at 11:04 p.m. on September 1, 2017, and
mailed on September 5, 2017, at 11:10 a.m.20
A telephonic hearing was held on March 23,
2020 on the Commissioner’s Motion to Dismiss.21 At
the hearing, the appellant acknowledged that his
Notices of Appeal did not contain any constitutional
challenges and orally moved to amend the Notices to

Mem. Opp’n Mot. Dismiss 2 (filed Mar. 9, 2020).
Olson Decl. ¶ 8. Mr. Olson’s declaration also notes that “[m]ail
to [his] house tends to ‘pile up’ on the kitchen table.” Id. at ¶ 10.
17 Olson Decl. ¶ 6.
18 Suppl. Westly Aff.
19 Suppl. Westly Aff. ¶ 8.
20 Suppl. Westly Aff. ¶ 8.
21 Tr. (Mar. 23, 2020) 1-32.
15
16

App. 17
include such a claim.22 This court denied the oral
motion, without prejudice, noting Appellant could
raise the issue again via written motion practice.23 As
such, Mr. Olson brought an unopposed motion to
amend his appeal to include a constitutional due
process claim.24 Mr. Olson’s amendment language
stated: “If the Commissioner’s Order was mailed to
the Appellant, such mailing did not provide Appellant
with sufficient notice of his rights to comply with
procedural due process required by the United States
and Minnesota constitutions.” 25 This court granted
the motion to amend Mr. Olson’s appeal.26
Then, on May 21, 2020, Mr. Olson filed a motion
for leave to supplement the factual record, and to
Tr. 12 (“We did not specifically plead the constitutional issue.”);
id. 28.
23 Tr. 29-30.
24 Mot. Leave Am. Am. Not. Appeal (Mar. 23, 2020). For judicial
economy, this court considered Mr. Olson’s motion to amend
before the Commissioner’s motion to dismiss. After granting Mr.
Olson’s motion to amend, we also transferred this case to the
District Court to obtain subject matter jurisdiction over the
constitutional claims. Order Granting Mot. Leave Am. (filed Apr.
23, 2020); See Erie Mining Co. v. Comm’r of Revenue, 343 N.W.2d
261 (Minn. 1984) (holding that since the tax court is a court with
statutory authority over disputes arising under the tax laws of
the state, subject matter jurisdiction over constitutional claims
must be conferred to the tax court from a court with authority).
The District Court returned the matter with its “full legal and
equitable powers for determination of all matters that might
come before it …. ” Order Transfer (filed April 21, 2020).
25 Amendment to Am. Not. Appeal ¶ 7 (filed Mar. 27, 2020).
26 Order Granting Mot. Leave Am. (filed April 23, 2020). We note
the added language reiterates Mr. Olson’s contention that the
statute of limitations does not apply.
22

App. 18
allow supplemental briefing.27 As to supplementing
the factual record, Mr. Olson wants this Court to
admit his statement, as follows:
1. I am the Appellant. I have direct knowledge
of the matters stated herein.
2. I am aware that the amount claimed by the
Commissioner in this case per the Tax Order
with Notice Date September 6, 2017, is
$154,779.09, with interest accruing thereon
since the Notice Date.
3. From September 6, 2017, to the present, I
would not have been able to pay off the taxes
at issue in this case in full, without
substantial
personal
and
business
28
hardship.
As to requesting supplemental briefing, Mr.
Olson notes that the “parties in their papers with
respect to the motion to dismiss have not argued the
case law in detail.” 29 In response, the Commissioner
opposed the motion for leave, asserting Mr. Olson’s
motion violated Rule 8610.0070, Subpart 5B(1)-(2) of
the Tax Court Rules of Procedure.30 In reply, Mr.
Olson again urges us to accept the supplemental facts

Mot. Leave Suppl. (filed May 21, 2020).
Suppl. Decl. Jeffrey Olson (filed May 21, 2020). Mr. Olson’s
request to incorporate his supplemental declaration is granted;
his statement is part of the record in these proceedings.
29 Mot. Leave Suppl. ¶ 8.
30 Comm’r Response Mot. Leave Suppl. (filed June 9, 2020)
(Minnesota Rule 8610.0070, subpart 5B requires a responding
party to serve and file its response to a dispositive motion at least
nine days prior to any hearing).
27
28

App. 19
in the record.31 This court now considers the
Commissioner’s motion to dismiss and Mr. Olson’s
motion for leave for further briefing.
II.

THE COMMISSIONER’S MOTION TO
DISMISS

Given the amended appeal, the Commissioner
asks us to conclude that we are without subject matter
jurisdiction to hear Mr. Olson’s appeal of the tax order
pursuant to Rule 12.02(a) of the Minnesota Rules of
Civil Procedure. Because we agree with the
Commissioner, we dismiss Mr. Olson’s appeal as
discussed below.
A. Appellant’s Appeal of the
Commissioner’s Tax Order
Under Minnesota law, a taxpayer has 60 days
to appeal an order of the Commissioner. Minn. Stat. §
271.06, subd. 2 (2018).32 An additional three days for
filing are added when the Commissioner has mailed
her order to the taxpayer. Soyka v. Comm’r of
Revenue, 834 N.W.2d 711, 714 (Minn. 2013). If the Tax
Court receives the taxpayer’s Notice of Appeal
through the United States mail after the filing
deadline has passed, then the date of mailing, as
evidenced by postmark, is the date of filing. Minn.
Pet’r’s Reply Mem. Supp. Mot. Leave Suppl. (filed June 11,
2020). Mr. Olson agrees that we need not order further briefing
if we accept the supplemental facts. Id. at 6.
32 Although not requested here, the tax court may extend that
period by 30 days (to 90 days). Minn. Stat. § 271.06, subd. 2;
Minn. R. 8610.0030 (2017).
31

App. 20
Stat. § 271.06, subd. 2a(a) (2018). Failure to timely file
an appeal deprives the court of subject matter
jurisdiction. Langer v. Comm’r of Revenue, 773
N.W.2d 77, 80 (Minn. 2009). Accordingly, unless Mr.
Olson’s appeal was filed with our court within 63 days
“after notice of the making and filing” of the
Commissioner’s order, we have no jurisdiction over it.
See Land O’Lakes Dairy Co. v. Hintzen, 225 Minn.
535, 538, 31 N.W.2d 474, 476 (1948) (“A statute
defining and limiting jurisdiction is to be construed as
jurisdictional and as limiting the power of the court to
act.”); see Minn. R. Civ. P. 12.02(a) (allowing a party
to move for dismissal due to lack of subject matter
jurisdiction).
i.
The Parties’ Arguments
For her part, the Commissioner contends the
Department of Revenue timely mailed Mr. Olson
notice of the assessment to his Thief River Falls
address.33 In support of this assertion, the
Commissioner attached attestations of Ms. Hagberg
and Ms. Westly, Department of Revenue employees,
who reviewed the Department’s electronic and paper
records concerning this case.34 Both attest to having
reviewed the records for Letter ID: 0910790464 (Mr.
Olson’s tax order), which indicated the letter was
printed on September 1, 2017, at 11:04 p.m. and
postmarked on September 5, 2017, at 11:10 a.m.35
In opposition, Mr. Olson alleges “he never
received the claimed mailing of the Commissioner’s
Hagberg Aff. ¶ 4; Suppl. Westly Aff. ¶ 8. Mr. Olson concedes
the address on the tax order is correct. Olson Decl. ¶ 9; Tr. 15.
34 Hagberg Aff. ¶ 2; Suppl. Westly Aff. ¶ 8 & Ex. E.
35 Hagberg Aff. ¶¶ 2-4; Suppl. Westly Aff. ¶ 8.
33

App. 21
Order and that he discovered the existence of the
Commissioner’s Order only substantially after the 60day period for filing an appeal.” 36 In opposing the
motion, Mr. Olson argues the Commissioner’s
evidence showing she mailed the notice is insufficient
and, as a result, this issue should only be decided “as
part of an evidentiary hearing and after limited
discovery.” 37
Mr. Olson’s amended appeal raises a
constitutional defense to the method of service of his
order. Mr. Olson claims that—even if the
Commissioner mailed her Tax Order—“bare mailing
of the Commissioner’s Order to the Appellant was not
constitutionally sufficient reasonable notice to the
Appellant of the existence of the claimed tax liability
and his rights to challenge that liability.” 38 In support
of the argument, Mr. Olson cites to Dusenbery v.
United States, Mullane v. Central Hanover Bank &
Trust Co., and Turner v. Commissioner of Revenue.39
Mem. Opp’n Mot. Dismiss 1-2 & Ex. A. In Mr. Olson’s affidavit,
he states he “has no record or knowledge that [he] received the
Commissioner’s Order within 60 days of September 6, 2017.”
37 Mem. Opp’n Mot. Dismiss 3. Since we accept the Mr. Olson’s
statement presented in his supplemental affidavit, infra n.25, he
waived the argument that there should be an evidentiary
hearing. Supplemental Olson Decl. ¶ 6.
38 Mem. Opp’n Mot. Dismiss 3. Mr. Olson cites to both the federal
and Minnesota Constitutions’ due process clauses. Id. at 2. The
due process protection provided under the Minnesota
Constitution is identical to that guaranteed under the United
Sates Constitution. U.S. Const. amend. XIV; Minn. Const. art. 1,
§ 7.
39 Mem. Opp’n Mot. Dismiss 2, 4 (citing Dusenbery v. U.S., 534
U.S. 161 (2002); Mullane v. Cent. Hanover Bank & Trust Co., 339
36

App. 22
At the hearing, Mr. Olson’s counsel noted that a
person should not lose appeal rights, such as here,
when the “unexpected tax would obviously be a huge
financial burden for this taxpayer to endure.” 40 In
reply, the Commissioner argues both the Mullane and
Hanover cases do not involve tax cases, and that the
Turner case supports her position that following
statutory assessment procedures does not violate
constitutional rights.41
ii.
Analysis
The record shows the disputed tax order was
mailed on September 5, 2017, as evidenced by the
affidavits of Ms. Hagberg and Ms. Westly.42 Both have
reviewed Department electronic and paper records
showing the tax order (Letter ID: 0910790464) was
printed on September 1, 2017 at 11:04 p.m. and
postmarked on September 5, 2017 at 11:10 a.m.43
Mr. Olson’s arguments to the contrary are
unpersuasive. Mr. Olson acknowledges Ms. Hagberg’s
declaration, but states that she “does not state what
specific records she reviewed (which are not attached
to her affidavit) or how she therefrom reaches her
conclusion.” 44 Both declarants attested to
Department records showing a specific date and time

U.S. 306 (1950); Turner v. Comm’r of Revenue, 840 N.W.2d 205
(Minn. 2013)).
40 Tr. 11.
41 Comm’r’s Reply Mem. Supp. Mot. Dismiss 6 (filed Mar. 18,
2020).
42 Hagberg Aff. ¶ 4; Suppl. Westly Aff. ¶ 8.
43 Hagberg Aff. ¶¶ 2-4; Suppl. Westly Aff. ¶ 8.
44 Mem. Opp’n Mot. Dismiss 3.

App. 23
the letter was printed and mailed; 45 we do not believe
a more specific record name need be identified. In his
brief, Mr. Olson pointed to our previous decision in
Artz, which held “after-the-fact submission of
affidavits” was not sufficient evidence of mailing.46
Artz v. Comm’r of Revenue, No. 5476, 1990 WL 93317,
at *2 (Minn. T.C. June 7, 1990). Here, the attestations
were made after the mailing, but—given the
specificity of the printing and mailing details—the
records were necessarily created contemporaneously
with the printing and mailing of the tax order.
Although Mr. Olson suggests this court should not
accept the Commissioner’s affidavit at face value, 47
courts may reach conclusions based on the parties’
affidavits.48 See Turner, 840 N.W.2d at 207 (affirming
this court can make “factual findings” in this
situation).
Even taking Mr. Olson’s statement that he has
“no record or knowledge that [he] received the
Commissioner’s Order within 60 days of September 6,
2017,” 49 as true, his non-receipt of the order is not

Hagberg Aff. ¶ 4; Suppl. Westly Aff. ¶ 8.
Mem. Opp’n Mot. Dismiss 3.
47 Tr. 8 (At the hearing, counsel argued the “affidavit[s] …
essentially just said I work at the Department and I’m telling you
it was mailed.”).
48 Because we find the Commissioner of Revenue mailed the tax
order, Mr. Olson’s request for an evidentiary hearing is
unnecessary, even if Mr. Olson hadn’t waived the request. See
supra n.32.
49 Olson Decl. ¶ 8. Notably, nowhere in Mr. Olson’s declaration
does he affirmatively state he never received the letter (only that
he has “no record or knowledge” of receiving the letter), nor does
45
46

App. 24
determinative.
The
statute
requires
the
Commissioner to establish only that the order was
mailed, not that it was actually received. See Minn.
Stat. § 270C.33, subd. 8 (2018). Nothing in the record
contradicts, or even calls into question, Ms. Hagberg
or Ms. Westly’s attestations.
As to Mr. Olson’s constitutional defense,50 our
Supreme Court held that, within the tax assessment
process, “the due process required is ‘notice
reasonably calculated, under all the circumstances, to
apprise interested parties of the pendency of the
action and afford them an opportunity to present their
objections.’ ” Turner, 840 N.W.2d at 209 (quoting
Mullane, 339 U.S. at 314). Per statute, an order of
he present any facts to disputing the actions taken by the
Commissioner to mail the tax order.
50 After the hearing on the Commissioner’s motion to dismiss, Mr.
Olson asks us for leave to allow supplemental briefing. Mot.
Leave Suppl. In Mr. Olson’s motion for leave for supplemental
briefing, he argues that his “declaration supports the Appellant’s
constitutional claims in that he has no reasonable alternative
remedy to challenge the tax at issue, other than direct appeal
from the Commissioner’s Order.” Mot. Leave Suppl. ¶ 5. “The
time limits in [the tax court procedural rules] are to provide the
tax court adequate opportunity to prepare for and promptly rule
on matters, and the tax court may modify the time limits.” Minn.
R. 8610.0070, subp. 3 (2017) (noting that time limitation in the
Tax Court rules of procedure can be modified for all motions
except summary judgment motions). As discussed here, the
Minnesota Supreme Court instructs that when the
Commissioner mails an order, due process requirements are met.
We do not believe further briefing would change the outcome and
therefore deny Mr. Olson’s request for supplemental briefing.

App. 25
assessment “is sufficient” if “sent postage prepaid by
United States mail to the taxpayer at the taxpayer’s
last known address.” Minn. Stat. § 270C.33, subd. 8.
As discussed above, the Commissioner followed the
statute when mailing her tax order to Mr. Olson at his
undisputed mailing address. In any event, Mr. Olson’s
constitutional defense presupposes the tax order was
mailed as alleged.
The analysis turns on whether the
Commissioner’s mailing of the tax order, per statute,
was “reasonably calculated, under all the
circumstances, to apprise [Mr. Olson] of the pendency
of the action and afford [him] an opportunity to
present [his] objections.” Mullane, 339 U.S. at 314
(citations omitted). There is no dispute that all of the
Commissioner’s audit correspondence, including the
disputed tax order, used the correct mailing address.51
Given the circumstances, we find that mailing Mr.
Olson the tax order, especially within the context of an
audit, was reasonably calculated to give him the
opportunity to know about the tax order and contest
it, if desired. See Turner, 840 N.W.2d at 210 (When
analyzing a similar situation, the Minnesota Supreme
Court held that “the regular mailing alone would
normally satisfy the requirements of due process.”).
Finally, we are not persuaded by Mr. Olson’s
argument that because “he had no reasonable
alternative remedy to challenge the tax at issue,” 52 we
should allow him to pursue his constitutional defense
here. The question before this court is whether the
51
52

Olson Decl. ¶ 9.
Mot. Leave Suppl. ¶ 5.

App. 26
Commissioner’s mailing was reasonably calculated to
give Mr. Olson notice and an opportunity to be heard;
the availability—or not—of alternate avenues to
pursue the same claim is not relevant to answer that
question.
Having shown the Commissioner issued her
Minnesota Department of Revenue Tax Order in this
case on September 5, 2017 (with a Notice Date of
September 6, 2017),53 adding 3 days to the 60-day
appeal period (because the Commissioner mailed her
Notice to Mr. Olson), this appeal would be timely if
filed no later than Wednesday, November 8, 2017 (63
days after the Commissioner issued her Tax Order).
Soyka, 834 N.W.2d at 714. Mr. Olson did not file his
appeal until December 26, 2019, more than two years
after the adjusted deadline.54 The appeal is therefore
untimely, and this court lacks jurisdiction to hear and
decide it. Consequently, we grant the Commissioner’s
motion to dismiss Mr. Olson’s appeal of her tax order.
J.N.B.H.

Hagberg Aff. ¶ 4; Suppl. Westly Aff. ¶ 8.
Am. Not. Appeal 1. Even if actual knowledge triggered the
statutory 60-day appeal period, Mr. Olson’s appeal would still be
untimely. Mr. Olson became aware of the order in January 2018,
which is 23 months before he filed his appeal. Olson Decl. ¶¶ 67.
53
54

App. 27
Minn.Stat. §270C.38
Subdivision 1. Sufficient notice. (a) If no
method of notification of a written determination or
action of the commissioner is otherwise specifically
provided for by law, notice of the determination or
action sent postage prepaid by United States mail to
the taxpayer or other person affected by the
determination or action at the taxpayer's or person's
last known address, is sufficient … .
Subd. 2. Service of notice by mail.
Notwithstanding any other law to the contrary, the
commissioner, if required to serve notices by
registered or certified mail, may choose to make such
service by regular mail, retaining a record of adequate
proof of such service.
Minn.Stat. §271.06 subd. 2
Time; notice; intervention. Except as
otherwise provided by law, within 60 days after the
notice date of an order of the commissioner of revenue,
the appellant, or the appellant's attorney, shall serve
a notice of appeal upon the commissioner and file the
original, with proof of such service, with the Tax Court
administrator … .
Minn.Stat. §289A.40 subd. 1.
Time limit; generally. [A] claim for a refund
of an overpayment of state tax must be filed within …
one year from the date of an order assessing tax under
section 270C.33 … .

